No. 20-1199
lNTHE

$>upreme QCourt of tbe fflniteb stntes
STUDENTS FOR FAIR ADMlSSIO S. lNC.,

Petitioner.
\'.

PRESIDENT & FELLOWS OF HARVARD COLLEGE,

Respondent.
CERTIFICATE OF SERVICE
I certify that on March 25, 2021, I served the Brief of Profes or David E.
Bernstein a Amicus Curiae in Support of Petitioner by e-mail on counsel for
petitioner, who con ented to electronic service pursuant to this Court's COVID-19
order. I also served three copie of the brief by U.S. Mail on counsel for respondent.
William S. Con ovoy
CONSOVOY MC'CAR'T'HY PLLC
1600 Wilson Blvd., Ste. 700
Arlington, VA 22209
will@con ovoymccarthy.com
Counsel for Petitioner

Seth P. Waxman
WILMER CCTLER PICKERING
HALE A 'D DORR LLP

1875 Penn ylvania Ave., W
Washington, DC 20006
seth.waxman@wilmerhale.com
Counsel for Respondent

Cory R. Liu

AsHCROFT LAW FIRM LLC

919 Congress Avenue
Suite 1325
Austin, TX 78701
(512) 370-1800
cliu@a hcroftlawfirm.com
March 25. 2021

